                                     Office of Inspector General
                                     U.S. Small Business Administration



                                                                                                     June 2012 Update


  Business Loans                                                      liquidation). This is a joint investigation with the U.S.
                                                                      Secret Service, Federal Deposit Insurance Corporation
  Texas Man Sentenced to Five Years                                   OIG, FBI, Immigration and Customs Enforcement -
  On June 4, 2012, a Texas man was sentenced to 5 years               Office of Investigations, and the Tampa Police
  probation, 6 months home confinement, and ordered to                Department.
  pay restitution of $1,207,459.35, as a result of his guilty
  plea to one count of false statements. The investigation            Disaster Loans
  disclosed that the man contracted to buy a motel from
  another business for $2,350,000. He then conspired with             Two Texas Men Sentenced for False Invoice Scheme
  others to create yet another company to serve as a straw            On June 1, 2012, two Texas men were each sentenced to
  seller in order to inflate, artificially, the sales price to        12 months home confinement, 3 years supervised release,
  $2,950,000. He then submitted fraudulent documents to               and ordered to pay a $4,000 criminal fine as a result of
  the SBA lender in support of this scheme. The subject               their previous guilty pleas to conspiracy related to a false
  paid the straw seller $400,000 of the required cash                 invoice scheme. The investigation disclosed that a third
  injection outside of closing, but $308,000 was secretly             man was approved for $999,700 in SBA home and
  returned to him prior to closing. This allowed the man to           business disaster loans to repair/replace more than 40
  apply some of the same funds again toward the                       rental properties allegedly damaged by Hurricane Ike.
  remaining balance of the cash injection, thereby reducing           The investigation revealed that the first subject verified
  the out of pocket funds he had to pay in order to purchase          to the SBA Processing and Disbursement Center (PDC)
  the property. At the closing, the straw seller received             approximately $680,000 in fictitious repairs and
  approximately $196,000, which was identified as seller’s            payments supposedly made to his construction company.
  proceeds. The $196,000 was then covertly funneled to a              The second subject, a property manager, created
  company owned by the subject who was the buyer in the               fictitious repair invoices and checks for submission to the
  transaction. This is a joint investigation with the FBI.            SBA. The third man, the SBA borrower, who also
                                                                      previously pled guilty, has not been sentenced. This case
  Former North Dakota Loan Officer Indicted                           was the result of a referral by the PDC. This is a joint
  On June 12, 2012, a former bank loan officer in North               investigation with the Department of Homeland Security
  Dakota was indicted on five counts of bank fraud, ten               (DHS) OIG.
  counts of false entry in bank records, six counts of false
  statements to a financial institution, one count of false           Mississippi Man Sentenced on False Statements Charge
  statements, and one forfeiture count. The charges relate            On June 5, 2012, a Mississippi man was sentenced to 3
  to him providing inaccurate and misleading information              years probation, and ordered to pay a $250,000 fine and
  in order to secure a $2 million SBA-guaranteed loan for a           restitution of $1 million. The subject previously pled
  husband and wife’s business. The investigation also                 guilty to a criminal Information charging him with one
  determined that the bank failed to properly verify the              count of false statements. The subject and his wife, who
  cash injection and to provide the required proof that the           has also been charged, submitted a Disaster Business
  loan proceeds were used according to the agreed upon                Loan Application for business properties located in
  terms, i.e. to purchase inventory for the new business.             Mississippi and Louisiana. The couple received $1
  The husband was previously indicted for misrepresenting             million in loan proceeds to repair properties damaged by
  his cash injection for the loan. Based upon these                   Hurricane Katrina. The investigation charged that they
  deficiencies by the bank, the SBA Office of General                 (1) did not use the proceeds as detailed in the Loan
  Counsel has decided to deny liability on the full SBA               Authorization Agreement, (2) submitted fraudulent
  guaranty. This denial of liability resulted in a cost               receipts to the SBA, and (3) used $389,923 of the loan
  avoidance to the SBA of $1,342,000.40 (the 75 percent               proceeds to the purchase a 43-foot yacht. This case was
  guaranty of the loan balance when it was transferred into           developed through a joint proactive initiative involving


Monthly Update on Activities of the SBA Office of Inspector General
members of the Department of Justice Hurricane Katrina                contracts with the Department of the Army. On June 27,
Fraud Task Force. This was a joint investigation with the             2012, in the same court, the owner of a construction firm
Federal Bureau of Investigation (FBI).                                pled guilty to a criminal information charging him with
                                                                      one count of conspiracy to commit interstate
Government Contracting & Business                                     transportation of stolen money. Additionally, he agreed
                                                                      to the forfeiture of $83,403. The charges relate to
Development
                                                                      allegations that the subject, and others, conducted
                                                                      financial transactions in an effort to conceal bribe
Idaho Construction Firm Sentenced on Wire Fraud                       payments from law enforcement and tax authorities. The
On June 6, 2012, an Idaho construction company was                    bribe payments were made to U.S. Army Corps of
sentenced to 36 months probation, and fined $65,000.                  Engineers officials in return for preferential treatment on
On March 28, 2012, the firm pled guilty to one count of               8(a) contracts. The investigation revealed that he
wire fraud in connection with fraud within the SBA’s                  conspired to transmit, unlawfully, or cause to be
HUBZone Program. The firms also pled guilty to one                    transmitted approximately $611,904. Of that amount, the
count of false statements pertaining to the General                   subject’s company retained $83,404 and paid
Service Administration’s (GSA) Surplus Property                       approximately $528,500 to his brother, a Corps of
Program, through which SBA 8(a) companies can obtain                  Engineers official. This is a joint investigation with the
surplus property. The president of the firm pled guilty on            FBI, IRS-CI, Army CID, and DCIS.
behalf of the corporation for defrauding the U.S.
Department of Agriculture on a $274,283 HUBZone set-                  Massachusetts Man Charged with Conspiracy
aside contract for roofing work to be performed at a                  On June 22, 2012, a criminal information was filed
research site in Oregon. The contract was awarded to the              against a Massachusetts man, who was the vice president
defendant corporation on the basis it was an eligible                 and co-owner of a business, charging him with one count
HUBZone entity, when in fact, it was not. The                         of conspiracy to commit wire fraud. The information
investigation revealed that the business submitted a                  alleges that he used another individual’s service-disabled
fraudulent HUBZone application to the SBA stating that                veteran status to establish, fraudulently, his business as a
its principal place of business was located in a HUBZone              Service-Disabled Veteran-Owned business for the sole
and that it had two employees residing within a                       purpose of obtaining set-aside contracts. The
HUBZone, when in fact, both representations were false.               Government Accountability Office (GAO) referred this
In addition, the investigation found that the firm obtained           case to the OIG. This is a joint investigation with the VA
property as an SBA certified 8(a) company under the                   OIG, Army CID, the Department of Labor OIG, and the
GSA’s Surplus Property Program, and immediately sold                  General Services Administration (GSA) OIG.
or transferred that property to a non-8(a) entity, which is
against GSA Surplus Property rules. This is a joint                   Man Sentenced on Acceptance of Gratuities Charge
investigation with the Internal Revenue Service -                     On June 25, 2012, a Missouri man was sentenced to 15
Criminal Investigations (IRS-CI, Department of                        months incarceration and 12 months supervised release.
Veterans Affairs (VA) OIG, General Services                           The subject pled guilty on March 15, 2012, to a criminal
Administration (GSA) OIG, U.S. Department of                          information that charged him with acceptance of
Agriculture OIG, Department of Interior OIG, Air Force                gratuities to influence decisions in an official capacity as
Office of Special Investigations, Department of the                   a federal employee. The man, while serving as a director
Army, Criminal Investigations Division (Army CID), and                of projects for the VA Medical Center (VAMC) in
the Defense Criminal Investigative Service (DCIS).                    St. Louis, accepted illegal gratuities in the form of tickets
                                                                      to sporting events, meals/entertainment, and interest-free
Virginia Firm Pleads Guilty on Bribery of Public Official             loans from the owners of a contracting firm and others in
On June 20, 2012, the president of a Virginia technology              exchange for steering work to the contracting firm. This
firm pled guilty in U.S. District Court for the District of           firm was awarded $3.4 million in government 8(a) set-
Columbia, on two counts of bribery of a public official.              aside contracts from January 2007 to late 2010, the time
The investigation revealed that the subject gave                      during which the subject recommended the company to
approximately $55,000 to a public official with the U.S.              personnel at the VAMC. This is a joint investigation
Army Corps of Engineers in return for preferential                    with the GSA OIG and VA OIG
treatment on 8(a) contracts to his business, which was an
SBA 8(a) program participant. Additionally, the subject
provided approximately $40,000 and ownership interest
in his business to an unnamed public official in return for
providing preferential treatment to his firms on potential



Update on the Activities of the SBA Office of Inspector General   2                                         June 2012
      Peggy E. Gustafson, Inspector General

 If you are aware of suspected waste, fraud, or abuse
 in any SBA program, please report it online at
 http://www.sba.gov/office-of-inspector-general/2662
 or call the OIG Hotline toll-free, at (800) 767-0385.

 The OIG has established an e-mail address,
 oig@sba.gov that we encourage the public to use to
 communicate with our office. We welcome your
 comments concerning this update or other OIG
 publications. To obtain copies of these documents
 please contact:
                      SBA OIG
            409 Third Street SW, 7th Floor
                Washington, DC 20416
                 E-mail: oig@sba.gov
          Telephone number (202) 205-6586
             FAX number (202) 205-7382

 Many OIG reports can be found on the OIG’s website
 http://www.sba.gov/office-of-inspector-general




Update on the Activities of the SBA Office of Inspector General   3   June 2012
